<html>
<title> - AMERICANS ABROAD, HOW CAN WE COUNT THEM?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                AMERICANS ABROAD, HOW CAN WE COUNT THEM?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2001

                               __________

                           Serial No. 107-13

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
75-727                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Chip Walker, Staff Director
                Erin Yeatman, Professional Staff Member
                            Dan Wray, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2001....................................     1
Statement of:
    Betancourt, Edward A., Director, Office of Policy Review and 
      inter-agency lIAISON, Overseas Citizens Services, Bureau of 
      Consular Affairs, Department of State......................    13
    Fina, Thomas, executive director, Democrats Abroad; L. Leigh 
      Gribble, member at large, Executive Committee, Republicans 
      Abroad; T.B. ``Mac'' McClelland, American Business Council 
      of the Gulf Countries; and Eugene Marans, attorney, 
      Representing the Association of Americans Resident Overseas 
      [AARO], American Citizens Abroad [ACA], and Federation of 
      American Women's Clubs Overseas [FAWCO]....................    45
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York......................................    25
Letters, statements, etc., submitted for the record by:
    Betancourt, Edward A., Director, Office of Policy Review and 
      inter-agency lIAISON, Overseas Citizens Services, Bureau of 
      Consular Affairs, Department of State, prepared statement 
      of.........................................................    17
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    37
    Fina, Thomas, executive director, Democrats Abroad, prepared 
      statement of...............................................    48
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, prepared statement of...............    27
    Gribble, L. Leigh, member at large, Executive Committee, 
      Republicans Abroad, prepared statement of..................    58
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    11
    Marans, Eugene, attorney, Representing the Association of 
      Americans Resident Overseas [AARO], American Citizens 
      Abroad [ACA], and Federation of American Women's Clubs 
      Overseas [FAWCO], prepared statement of....................    81
    McClelland, T.B. ``Mac'', American Business Council of the 
      Gulf Countries:
        Letter dated July 25, 2001...............................    64
        Prepared statement of....................................    68
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     4

 
                AMERICANS ABROAD, HOW CAN WE COUNT THEM?

                              ----------                              


                        THURSDAY, JULY 26, 2001

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Clay, and Maloney.
    Staff present: Chip Walker, staff director; Erin Yeatman 
and Andrew Kavaliunas, professional staff members; Daniel Wray, 
clerk; David McMillen, minority professional staff member; and 
Earley Green, minority assistant clerk.
    Mr. Miller. Good afternoon. We'll go ahead and begin. There 
is a vote going on on the floor and I know Mrs. Maloney and Mr. 
Clay and Mr. Gilman on are their way back over here from the 
vote. I went directly to the vote, and so we may shift things 
around depending on the arrival of individual Members. But let 
me go ahead and begin with my opening statement, and then we'll 
see who's here at that time.
    Today we revisit the issue of counting Americans abroad. 
When we first held a hearing on this issue in 1999, the Census 
Bureau testified to the operational and timing difficulties 
that they felt would make it nearly impossible to include these 
Americans in the 2000 census.
    Now, with the 2000 census behind us we have the time, but 
do we have the ability to do the job? The reasons behind the 
desire to count overseas Americans are clear, reasonable and 
justified. Many Americans abroad continue to pay taxes and vote 
here in the United States. Many are only overseas temporarily 
and will soon return. When they return of course they begin to 
use the resources in the States and communities where they will 
reside. Many overseas Americans recognize the civic importance 
of participating in the census and want to do their part.
    Many of the groups who will give us testimony today 
represent well-defined groups of Americans abroad. However, any 
effort to count Americans abroad and include them in the 
apportionment count must be equal in its efforts for all groups 
of Americans, in all countries, or it will run the risk of 
being subject to painstaking litigation. There is just such 
litigation going on now between the States of North Carolina 
and Utah.
    So the question Congress is faced with is a difficult one. 
Can we count Americans abroad legally, accurately and at what 
price? I have been an advocate of counting Americans abroad. 
Just last week I supported Mrs. Maloney's amendment to the 
Commerce-Justice-State appropriations bill to provide funding 
for research to be conducted by the Census Bureau in this area. 
And in accordance with language we placed in last year's 
appropriations bill, at the end of September of this year, the 
Census Bureau is due to submit a report to the Congress on how 
they can count Americans abroad. I expect that this report will 
be a thorough and detailed report and will provide us with 
something that we can all use as a blueprint.
    While I'm an advocate, I'm also a realist. The more I hear 
about this endeavor, the more questions I have as to its 
feasibility. It is daunting enough to simply say that the 
Census Bureau must take a census of Americans that reside in 
every nation in the world, but it's much more than that. Before 
we undertake such an objective certain questions must be 
answered.
    We must first decide who's actually a citizen. While 
citizenship is defined in law, how will the Census Bureau 
verify citizenship around the globe? Keep in mind that in the 
domestic census everyone is counted. Citizenship is not an 
issue.
    And what about outright fraud? If non-citizens attempt to 
fraudulently send in census forms in an attempt to gain an 
advantage in immigration or some other issue, some other form 
of U.S. assistance, how can this possibly be verified?
    Some say use administrative records. Well, administrative 
records assisted tremendously in counting--in fact, it was the 
sole source of counting overseas military government employees 
and their dependents. How reliable and accurate would 
administrative records be from other organizations? What of 
Americans overseas who are not listed on any official register? 
Is it fair to exclude them? Would it be legal to exclude them?
    Another question is whether participation in overseas 
enumeration should be voluntary, as some have suggested. Can 
Congress support a voluntary census of overseas Americans while 
it supports a mandatory domestic census. Could such divergent 
approaches be supported legally?
    Some have suggested that a data base maintained by the 
State Department would simplify things. We cannot and must not 
forget the all important privacy issues. It is our government's 
policy that Americans are not forced to register with the State 
Department when traveling abroad beyond obtaining a passport. 
Such a registration system would also put a tremendous burden 
on individuals.
    At a recent subcommittee hearing Census Bureau Acting 
Director Bill Barron said an enumeration of overseas Americans 
would be a daunting task. That is clearly an understatement. 
Our Nation, however, has taken on and conquered many a daunting 
task in our day. Making the 2000 census more accurate than the 
1990 census was just such a daunting task and one the Bureau 
accomplished to its credit.
    This Congress must decide whether the task of including 
overseas Americans in future censuses is feasible and within 
reasonable fiscal constraints. The witnesses here today have 
been invited because they have insight into the complexities of 
this issue and hopefully can provide us with their expert 
guidance.
    I look forward to everyone's testimony, and I thank 
everyone for coming before the committee today. The question 
now is not whether we count them, it's just how do we 
accomplish the task. It is a difficult job and I think working 
together--this is not a partisan issue--that hopefully we will 
have some ideas today and can proceed when we get the report 
from the Bureau in September.
    Mrs. Maloney.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T5727.001
    
    [GRAPHIC] [TIFF OMITTED] T5727.002
    
    [GRAPHIC] [TIFF OMITTED] T5727.003
    
    [GRAPHIC] [TIFF OMITTED] T5727.004
    
    [GRAPHIC] [TIFF OMITTED] T5727.005
    
    Mrs. Maloney. I just would like to begin by thanking the 
chairman for calling this important hearing to discuss how we 
can count Americans living abroad. We have disagreed on many 
issues regarding the census, but I believe we are ready to come 
together on this issue of counting Americans living abroad. I 
would also like to thank all the witnesses here today for 
taking the time to testify and help us better understand the 
issue. I am hopeful that we can work together to get a good 
count of Americans abroad as quickly as possible.
    However, I'm disappointed that the Census Bureau was not 
asked to come and testify. I think all of the witnesses today 
are in agreement that something should and must be done to 
count Americans abroad, and we should not let another census go 
by without at least trying to get an accurate count. The 
problem is with the Census Bureau.
    I understand the concerns and difficulties that the Census 
Bureau has in this challenge, but it seems that the Census 
Bureau would rather continue to list the challenges than come 
up with the possible solutions. I don't want to minimize the 
hurdles that are before us. I think that if we can resolve the 
issues on how the count of Americans overseas will be used then 
we can move quickly to ensure there is a count. Yet these 
hurdles can only be surmounted by hard work, not bellyaching on 
the part of the Bureau.
    Last year the chairman put report language--and I 
congratulate the chairman for having put report language in the 
Census Bureau appropriations bill--asking the Census Bureau to 
report back on steps that could be taken toward counting 
Americans abroad. To the best of my knowledge, very little work 
has been done by Census. In fact, I look forward to asking the 
witnesses if any of the groups have today sat down with the 
Census Bureau to discuss these matters since the appropriations 
bill was enacted nearly a year ago.
    As my colleagues know, I am very concerned that Americans 
abroad have not been counted. Two years ago I submitted 
legislation, H.R. 2444, in the 106th Congress, the Census of 
Americans Abroad Act. My bill was the first bill ever to direct 
the Census Bureau to start to plan and implement counting of 
Americans abroad and to allocate money for that purpose.
    With Chairman Miller's support, I recently passed an 
amendment to the Commerce-Justice-State appropriations bill 
that I believe is the next concrete step to ensuring that we 
will at least, at the very least, try to count all of the 
Americans living abroad. In the bill, we allocated $2.5 million 
to begin making the count. I hope that I will have the 
chairman's support to try to ensure that it survives, this 
important allocation, in the conference committee and in the 
final bill that goes to the President.
    But what is before us now is the job of pressing the 
Census, now that it has the money specifically for this 
purpose, to move forward and finally present us with a concrete 
plan for counting Americans living abroad as soon as 2004, as 
called for in my original legislation, so that we don't have to 
wait another--to the next census in 2010. And believe me, if we 
don't start trying to do something in this particular census, 
we will be there in 2010 again throwing our hands up in the air 
and wringing our hands saying why don't we have a plan to count 
Americans abroad.
    The Census Bureau has avoided this issue again and again. 
We need to act now to make sure they do not shortchange 
Americans abroad once more. We have 9 years before the 2010 
census. I ask for Chairman Miller's support for my bill, H.R. 
680, to press the Census to start counting Americans residing 
outside the United States.
    I hope that the chairman will set up a time in the near 
future, now that we have heard from the people excluded, so 
that we can hear from the Bureau on what needs to be done and 
what are their concrete plans to finally count the really 
patriotic citizens and Americans living abroad. They pay their 
taxes. They vote. They are very proud of being Americans. 
They're unofficial Ambassadors for our country. They do so much 
good work for our country. We can at least include them in what 
is a great civic ceremony, really the only real civic ceremony 
that includes every single American. That is the census. And it 
is the responsibility that is cited in the Constitution and we 
should allow our citizens to be counted.
    It's important. Particularly as we move into a global 
economy, it becomes even more important as more and more 
Americans will be living abroad. I again congratulate the 
chairman, and I want to note that I am so glad that he 
supported this amendment and how much I've enjoyed working with 
him on this committee. I regret that he has made a choice to 
retire after 6 years in Congress, and I feel that----
    Mr. Miller. It's our 9th year.
    Mrs. Maloney. 9th year. Oh, he's going to retire after his 
9th year. And that was some type of pledge that he made. But I 
think that's unfortunate, and we will lose a great leader, 
great advocate. But one reason that I'm very sad that he is 
resigning is that he will not be here in 2010 to have the 
papers thrown in his face by the Americans living abroad who 
will be saying that, you know, you promised us, you promised 
us. You said you'd get it done. It hasn't been done.
    So he's retiring. So I'm afraid to let him out of here 
until we have this plan in place because he's worked on this 
project. He understands it. He cares about it. He can get the 
job done and we have to get it done before he leaves office 
because I don't know what will happen after he leaves with the 
Republican majority. No one has the expertise and the depth of 
knowledge and I would say the commitment that the chairman has.
    So therefore, we are under a timeframe to get this done 
before the chairman leaves Congress. Thanks, Mr. Chairman.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T5727.006

[GRAPHIC] [TIFF OMITTED] T5727.007

    Mr. Miller. Thank you. I think we hope to have another 
hearing in October once the Census Bureau presents their 
report, which is due at the end of September. But today we want 
to hear from other groups. Lets start with the second panel 
initially--and then if Mr. Gilman or Mr. Clay come in and want 
to have an opening statement we'll have those. But if Mr. 
Betancourt would step forward. In this subcommittee of the 
Committee of Government Reform we do swear in our witnesses, so 
if you'd remain standing and raise your right hand.
    [Witness sworn.]
    Mr. Miller. Thank you. Thank you very much and I appreciate 
your being here today, and I have read your statement, but I 
would like to have you proceed to give us a report.
    Before you start, I have visited many Embassies around the 
world and when congressional Members visit an Embassy they 
don't usually ask for the consular office, but I have on a 
number of occasions. I don't know if you have ever known that 
or not, but I did so most recently actually in El Salvador, and 
I've learned a lot about the challenges they are faced with. I 
know that's where a lot of the people in Foreign Service start 
their careers, but it's really one of the toughest jobs to be 
there to make decisions that affect the lives of so many 
individuals in these countries around the world. So I admire 
the work the consular office does. It's where you find some of 
the unsung heroes are at the State Department. So I give you 
congratulations for the work that you do and the challenge that 
you have.
    But, Mr. Betancourt, would you like to make a statement 
please?

 STATEMENT OF EDWARD A. BETANCOURT, DIRECTOR, OFFICE OF POLICY 
 REVIEW AND INTER-AGENCY LIAISON, OVERSEAS CITIZENS SERVICES, 
        BUREAU OF CONSULAR AFFAIRS, DEPARTMENT OF STATE

    Mr. Betancourt. Yes. Thank you, Mr. Chairman and members of 
the committee. Thank you for this opportunity to testify on 
behalf of the Bureau of Consular Affairs of the Department of 
State regarding the census and the possibility of counting U.S. 
citizens overseas.
    The Bureau of Consular Affairs is charged with exercising 
the Secretary of State's responsibility to provide consular 
protection and services to U.S. citizens abroad. There is no 
higher priority of the Department of State than the protection 
and welfare of Americans overseas. While for workload and 
crisis planning purposes we compile internally estimates of 
U.S. citizens within a country, we currently have no means or 
ability to count them. These estimates are prepared by our 
Embassies using as a base Embassy registration numbers, 
information from local immigration authorities, and informal 
surveys of employers and institutions in the American community 
such as the American Chamber of Commerce. We have, however, 
neither the expertise nor the resources at present to conduct 
an accurate count of U.S. citizens in a given country.
    Americans travel, study, work and reside abroad in ever 
increasing numbers. While we and our colleagues and our U.S. 
Government agencies do have some statistical information on 
Americans overseas, we do not have comprehensive information on 
how many Americans reside overseas at any given time. The 
Departments of Commerce and Transportation travel and tourism 
statistics reflect that Americans make more than 60 million 
trips abroad each year. According to the Department of 
Education, the number of U.S. students studying abroad each 
year has grown to 114,000. The Department issued over 7 million 
U.S. passports in fiscal year 2000.
    The population of Americans abroad is very complex. 
Americans abroad include, for example, the more than 44,000 
children who were born abroad to U.S. citizen parents for whom 
we issue Consular Reports of Birth Abroad. We also issue 6,000 
Reports of Death of U.S. citizens abroad each year. More than 
2,500 U.S. citizens are arrested abroad each year and serve 
sentences in foreign prisons. There are also some 400,000 
recipients of U.S. Federal benefits such as Social Security and 
veterans benefits abroad, which include both citizens and non-
citizens. Again, we have some statistical data, but it is not 
of the nature sought by the Census.
    We recognize the many and important contributions of our 
overseas citizens and we appreciate their desire to be counted. 
It is our understanding that for census 2000 the Census Bureau 
did count U.S. military and their dependents assigned overseas 
as well as Federal civilian employees and their dependents at 
their home of record or other home State designations 
determined by using employing agency administrative records. 
The Census Bureau did not to our knowledge conduct an 
individual count of U.S. Government official personnel and 
their dependents abroad.
    Although we have noted that we lack both the staff and 
resources to conduct a worldwide count, of particular concern 
is the fact that we lack within the Department of State any 
expertise in conducting or validating the census. We recognize 
fully that conducting a census is a highly developed exercise 
utilizing complex methodologies created by experienced 
statisticians who validate the soundness of their programs 
based on years of sampling. The difficulties inherent in 
conducting a census within our country increase exponentially 
when projected to a global scale. We at the Department of State 
are simply not equipped to undertake a full scale census 
overseas.
    It should also be noted that there is no accurate source of 
information regarding the location of U.S. citizens abroad to 
which U.S. census questionnaires might be addressed. U.S. 
Embassy and consulate registration records are based on purely 
voluntary self-reporting by citizens and at any given time we 
estimate that there are more than 3 million U.S. citizens 
abroad, figures which include short-term visitors. Consular 
registration records cannot be considered complete or accurate, 
since U.S. citizens are not required by law to register with 
the U.S. Embassy or consulate when they travel or reside 
abroad.
    U.S. passports are issued to adults for a 10-year period. 
Addresses for our mobile population change rapidly, as we find 
when we try to use a passport or registration address or 
telephone information to contact families in emergencies. 
Experience shows that most citizens do not register and even 
for those who do, the registration information does not remain 
valid for very long. On an annual basis we try to update our 
registration and crisis warden systems. In addition, we find 
that many citizens leave the foreign country without notifying 
the U.S. Embassy or consulate.
    We are now exploring new ways to make it easier for 
Americans to register with the U.S. Embassy or consulate, 
including Web-based systems which will enable our citizens to 
update their location information securely from any laptop, 
cyber cafe or hotel. Several U.S. Embassies have modest on-line 
registration capabilities at the present time. The data is 
received by e-mail and must then be keyed into our consular 
automated registration system. Our intention is to develop a 
worldwide system that will replicate the data securely and 
allow citizens to update their own information frequently. We 
anticipate that such a system would not be available for 
several years. It is our hope that once that kind of process is 
made simpler, more citizens will choose to register, but again 
it is not mandatory.
    Moreover, we note a threshold issue in any discussion 
necessarily involves criteria for an enumeration. Counting U.S. 
citizens is itself an exercise which involves far more than 
merely counting. If citizenship must be verified, it would 
involve an independent and extremely labor intensive process to 
confirm that the person who declares him or herself a U.S. 
citizen is in fact entitled as a matter of U.S. citizenship law 
to assert that status.
    This will not always be obvious. There are hundreds of 
thousands of persons in Canada and Mexico alone who are U.S. 
citizens but may lack documentation such as a U.S. passport to 
establish that fact, especially since U.S. citizens are not 
required to have a U.S. passport in order to travel to those 
countries. Moreover, there are thousands of persons around the 
globe who are in fact U.S. citizens, but have never chosen to 
make that fact of record by applying for documentation as a 
U.S. citizen. Yet a person's status as a U.S. citizen is 
determined by the laws enacted by Congress regardless of 
whether a person has come forward to confirm that status.
    Additionally, there are a universe of persons of unknown 
size, who while clearly U.S. citizens at birth, lack current 
evidence that they remain U.S. citizens. In some instances this 
involves complex adjudications, retrieval of records pertaining 
to past generations, and other protracted procedures to 
determine if a person acquired, has retained or may have lost 
U.S. citizenship even before one gets to the question of how to 
count such persons. Yet the failure to determine or confirm a 
person's self-declaration of U.S. citizenship could undermine 
the validity of any count of U.S. citizens unless it is 
determined that verification of citizenship is not required.
    We must again stress the Consular Affairs Bureau lacks the 
resources personnel and, most significantly, the means to 
conduct citizenship adjudication and verifications of hundreds 
of thousands or perhaps even millions of persons abroad.
    There is also a question as to how the home State 
determination would be made. Would it be the self-declared last 
State where the citizen lived before going abroad? The State 
they claim for tax purposes? The State in which they vote or 
their State of birth?
    A large number of U.S. citizens born abroad continue to 
reside abroad and may never have been to the United States. 
Would they claim a U.S. citizen parent's or grandparent's last 
State of residence as a home State? How would duplication of a 
count be avoided and what information could be used as an 
identifier? U.S. passport numbers or Social Security numbers 
would not suffice, since U.S. citizens residing in the Western 
hemisphere are not required to have U.S. passports and not all 
U.S. citizens abroad have Social Security numbers.
    The Department of State is not in the position to provide 
extensive staff support regarding Census Bureau enumeration 
activities abroad. Consular sections at U.S. Embassies and 
consulates provide a variety of essential services to ensure 
the protection of the interests of the United States and its 
citizens on the most fundamental level. We assist Americans 
abroad in routine and emergency situations, facilitate the 
travel of immigrants and non-immigrants, and deter the travel 
of persons likely to remain illegally in the United States or 
engage in activities harmful to our country. Our consular 
offices must focus primary attention on these key consular 
services.
    We would anticipate that it would be necessary for the 
Census Bureau to make arrangements to send or retain trained 
agents to act on their behalf in the overseas enumeration. We 
can of course coordinate with foreign governments to obtain 
country clearance, if possible, for Census Bureau activities 
abroad and publicize Census Bureau activities through our 
overseas consular emergency warden systems. We can issue public 
announcements about an overseas count which would be 
highlighted in the Bureau of Consular Affairs home page. Our 
home page has seen as many as 600,000 hits a day, or 13 million 
or more hits a month.
    Another service we could provide to support Census Bureau 
enumeration activities abroad would be to include the subject 
in our consular outreach program to key stakeholders such as 
tourism, travel, education, and other organizations of U.S. 
citizens overseas. Similarly, we would be pleased to make 
available to the Census Bureau our contact information 
regarding stakeholder organizations, or a link to our Web page.
    We appreciate that it is very important to U.S. citizens 
overseas who are called upon to exercise the responsibilities 
of citizenship, such as voting and paying taxes, to be counted. 
We are supportive of the concept, but believe the subject will 
require considered study by demographic experts at the Census 
Bureau to design and develop procedures, methods and plans to 
conduct such an operation. The State Department is willing to 
work with and advise the Census Bureau, as it does with other 
Federal agencies, on such a study.
    Mr. Chairman, this concludes my testimony. Thank you for 
the opportunity to speak to the subcommittee today. I will be 
happy to answer any questions that you or the Members have.
    [The prepared statement of Mr. Betancourt follows:]

    [GRAPHIC] [TIFF OMITTED] T5727.008
    
    [GRAPHIC] [TIFF OMITTED] T5727.009
    
    [GRAPHIC] [TIFF OMITTED] T5727.010
    
    [GRAPHIC] [TIFF OMITTED] T5727.011
    
    [GRAPHIC] [TIFF OMITTED] T5727.012
    
    [GRAPHIC] [TIFF OMITTED] T5727.013
    
    [GRAPHIC] [TIFF OMITTED] T5727.014
    
    [GRAPHIC] [TIFF OMITTED] T5727.015
    
    Mr. Miller. Thank you. I appreciate your statement and 
we're going to have some questions. But I think what we want to 
do because we kind of got a little bit out of order, is first 
allow Mr. Clay to make an opening statement. Unless--do you 
have to rush off, Mr. Gilman?
    Mr. Clay. Mr. Gilman can go ahead.
    Mr. Miller. Why don't we let Mr. Gilman, if you don't 
mind----
    Mr. Clay. That's fine.
    Mr. Miller. Let Mr. Gilman make a statement because of the 
vote confusion. Thank you very much.
    You have been obviously a leader on this issue in Congress 
for a number of years and you have been pushing it, and so we 
appreciate your continued interest in and advocacy of the 
issue. Mr. Gilman.

   STATEMENT OF HON. BENJAMIN A. GILMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Gilman. Thank you very much, Mr. Chairman and my 
colleagues, for this opportunity to come before you on this 
important issue, the enumeration of Americans living abroad and 
the bill I have introduced H.R. 1745, called the Full Equality 
for Americans Abroad Act.
    As a long time member of our House International Relations 
Committee, and this Member served on a former Post Office and 
Civil Service Committee where we had a specific Census 
Committee, and now as a senior member of our Government Reform 
Committee, I've had the opportunity to work on this issue for 
many years. And I think American citizens living abroad need 
some sort of equality when we discuss the census of our Nation.
    Over these years it's become clear to me that our Americans 
living abroad place an increasingly important role in our 
Nation's economy and our foreign policy and in our relations 
with other nations and with their citizens throughout the 
world.
    Moreover, as we move into this new century and increased 
globalization, we must continue to recognize the important role 
played by the export of overseas goods and services to our 
Nation's economy. Not only are we reliant on those Americans 
abroad to carry out our Nation's exports for the creation of 
U.S.-based jobs, but we're reliant on those citizens to promote 
and advance U.S. interests around the world. They become 
virtually our informal diplomats.
    Nevertheless, our U.S. Census Bureau currently does not 
count private sector Americans residing abroad, this despite 
the fact that U.S. Government employees working overseas are 
included in the U.S. census. So there really is a 
discriminatory practice with regard to our Americans living 
abroad. If we want to make certain that all Americans are 
counted, and that our Nation's decennial census is going to be 
the most accurate that we can obtain, we must change this 
inconsistent policy.
    Accordingly, Mr. Chairman, my colleagues, I've introduced 
H.R. 1745, the Full Equality for Americans Abroad Act, 
legislation that will make certain that all Americans living 
overseas are going to be counted for purposes of apportionment 
in the decennial census beginning in the year 2010. They tell 
me there are over 3 million Americans living in that situation.
    The issue of counting all American citizens living abroad 
has the support of Members on both sides of the aisle. In fact, 
my good friend and colleague from New York, Congresswoman 
Carolyn Maloney, has introduced legislation expressing the 
sense of Congress supporting an interim count of American 
citizens living abroad by the U.S. Census Bureau in 2004, and I 
fully support that proposal. I just hope she will be a 
cosponsor of mine as I became a cosponsor of her measure.
    Moreover, during consideration of the fiscal year 2001 
Commerce, Justice, and State appropriations bill, report 
language was included in that measure directing the U.S. Census 
Bureau to prepare a report to Congress detailing the number of 
Americans living and working overseas as well as any 
methodological, logistical or other issues associated with the 
inclusion in future decennial censuses of Americans residing 
abroad.
    So it's apparent that the enumeration of all Americans 
abroad is supported by a wide array of Members throughout the 
Congress as well as by those members on our subcommittee here.
    Accordingly, I'm hopeful that with the leadership of 
Chairman Miller, and with our ranking member, Mr. Clay, whose 
father used to be very active in census matters in our former 
Postal Committee, will draft a piece of legislation to make 
certain that the enumeration of all Americans abroad for 
apportionment purposes in the 2010 census and all decennial 
censuses thereafter. Such legislation could, as proposed by 
Congresswoman Maloney, include an interim census, thus 
providing the Census Bureau with the opportunity to work out 
all of its bugs prior to that 2010 count.
    So I look forward, Mr. Chairman, Mr. Clay and my 
colleagues, to working with both Chairman Miller and with all 
of your members on your committee on this proposal. Together 
I'm confident that we can produce a bill to count all American 
citizens living abroad beginning in the year 2010.
    In closing, I'd like to reiterate the need for the U.S. 
Census Bureau to count all Americans, including private 
citizens, no matter where they live and work. Not only will 
such a policy provide an accurate census, but it will allow our 
Congress and private sector leaders to realize how best to 
support our U.S. companies and our citizenry, and more 
important, we'll have a fair estimate for redistricting 
purposes of all the people in each district.
    U.S. citizens abroad vote and pay our taxes, yet they are 
discriminated against by our government solely because they're 
private citizens and not working for the government overseas. 
Mr. Chairman, my colleagues, I urge you to please work on 
changing this policy and include the private sector Americans 
residing overseas for the next census.
    Thank you for the opportunity to appear before your 
committee.
    [The prepared statement of Hon. Benjamin A. Gilman 
follows:]

[GRAPHIC] [TIFF OMITTED] T5727.016

[GRAPHIC] [TIFF OMITTED] T5727.017

[GRAPHIC] [TIFF OMITTED] T5727.018

[GRAPHIC] [TIFF OMITTED] T5727.019

[GRAPHIC] [TIFF OMITTED] T5727.020

[GRAPHIC] [TIFF OMITTED] T5727.021

[GRAPHIC] [TIFF OMITTED] T5727.022

[GRAPHIC] [TIFF OMITTED] T5727.023

    Mr. Miller. Thank you, Mr. Gilman. We appreciate your 
continued advocacy for this issue and that we all agree on. The 
problem is not whether, it's a question of how, and that's what 
we're in the process of working on, and we hopefully will be 
able to move toward a test census within the next few years and 
then be prepared for 2010.
    Mr. Gilman. And, Mr. Chairman, I hope we can do it before 
you leave this committee, and we're going to regret your 
leaving, going on to other things. Thank you very much.
    Mr. Miller. Thank you. Thank you. Did anybody else have a 
comment or question?
    Mrs. Maloney. I would just like to applaud the 
Representative from the great State of New York and thank him 
for his work on this issue and his leadership really on this 
and so many other areas. He's done extremely outstanding work, 
and we all appreciate it.
    Mr. Gilman. I want to thank Congresswoman Maloney. We've 
worked together on this issue through the last session, and 
hopefully we'll now see it come to fruition.
    Mrs. Maloney. Absolutely.
    Mr. Gilman. Thank you very much.
    Mr. Miller. Thank you, Mr. Gilman.
    Mr. Clay, would you like to make an opening statement? 
We're kind of a little bit out of order, but I've already done 
mine.
    Mr. Clay. Do you mind if I share your microphone? Thank 
you, Mr. Chairman. Let me also thank Mr. Gilman for his 
testimony. We appreciate that. Thank you.
    I appreciate you having this hearing today, and I look 
forward to the other testimony. There seems to be a groundswell 
of opinion in Congress that this should happen. At the same 
time, the Census Bureau keeps telling us that this is a task 
that is almost impossible to carry out. I must admit, seeing 
the kinds of errors that occur in trying to count the people in 
this country, I'm not optimistic that we can do a good job on 
counting the Americans overseas.
    I would like to raise three questions that I would hope 
that the panels would consider as they discuss the plans for 
counting Americans overseas. First, what is the purpose of this 
count? Is it for apportionment, redistricting, State and local 
boundaries?
    Second, how do we define the universe of who should be 
counted? Should it be all citizens? Should it include the 
foreign spouses and dependents of citizens? Should it include 
anyone who has ever lived in the United States or only those 
who vote?
    Third, what is the implication of adding this voluntary 
component to the Census? In the United States people are 
required by law to cooperate with the census. There is no way 
of demanding or enforcing cooperation overseas and, thus, 
participation is strictly voluntary.
    The politics of who gets counted in the census is an 
interesting one. One of the shameful compromises of our 
Constitution was the agreement to count slaves as three-fifths 
of a person. Part person, part property. While this was 
rectified in the 14th amendment the politics of counting 
African-Americans did not end there. The 14th amendment not 
only abolished the three-fifths clause, it put in place section 
two, which says when the right to vote at any election is 
denied to any male inhabitant or in any way abridged, the basis 
of representation therein shall be reduced in the proportion 
which the number of such male citizens shall bear to the whole 
number of male citizens. In other words, if a State denies 
former slaves the right to vote, their representation in 
Congress will be reduced.
    The 1870 census was supposed to measure how many male 
citizens were disenfranchised. According to the census 
director, the numbers of disenfranchised males was bad and had 
not been collected properly. In 1880, the question of 
disenfranchised males was dropped from the census and the 
enforcement of section two of the 14th amendment became moot. 
It was not until the passage of the Voting Rights Act of 1965, 
almost a century later, that Congress addressed the problems of 
disenfranchisement in the South. As Margo Anderson points out, 
the men who drafted the 14th amendment wanted to remind 
Americans of their duty to equal suffrage and civil rights. She 
goes on to say in that duty the 1870 census failed. It did not 
maintain the statistics of suffrage restriction and civil 
rights, and later generations of Americans suffered the 
consequences of that failure.
    The state of Americans overseas is not so severe as that 
faced by African-Americans between the ratification of the 14th 
amendment in 1868 and the passage of the Voting Rights Act in 
1965. But they are a part of the politics of the census 
nonetheless. My colleague, Mr. Cannon, awoke to the problem of 
counting Americans overseas when Utah lost a seat in the House. 
In the last Congress, Representative Ryan from Wisconsin 
introduced legislation on where prisoners were counted, because 
it was clear that Wisconsin was in danger of losing a seat.
    Former Census Director Kenneth Pruitt was fond of calling 
the census an American celebration. It is understandable that 
Americans living overseas would want to be a part of that 
celebration, particularly those who intend to return. But 
another part of the census is fairness. If in the process of 
including Americans overseas in this celebration we disrupt the 
fairness and equity of the census, we have done the job badly, 
just as the Census Bureau did in 1870, when they dropped the 
ball on suffrage.
    I look forward to today's discussions, and I hope that we 
can keep our eyes on fundamental questions of the purpose of 
this count, who gets counted and how including this count in 
the census affects others.
    Thank you Mr. Chairman. I appreciate that opportunity.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T5727.024
    
    [GRAPHIC] [TIFF OMITTED] T5727.025
    
    [GRAPHIC] [TIFF OMITTED] T5727.026
    
    [GRAPHIC] [TIFF OMITTED] T5727.027
    
    Mr. Miller. Thank you, Mr. Clay. Mr. Betancourt gave his 
statement. If you'd come forward, I think we have a few 
questions and then we'll continue and get back to the schedule 
here.
    Let me start with some questions about who the U.S. 
citizens are in countries. And I guess it's quite different 
from country to country, from a Canada to an El Salvador to an 
Israel to an India, I guess.
    Mr. Betancourt. There's an enormous diversity of persons 
who are long term, short term, sometimes a generation or two. 
Our citizenship laws are written in such a way that citizenship 
will not extend indefinitely. It will not extend, for example, 
beyond the stage of which a grandparent will have lived in the 
United States. So you--those laws preclude successive 
generations of absentee Americans. But that said, again, 
there's quite a mix and it varies from country to country. In 
places like Mexico, for example, we know that we estimate that 
we have somewhere between 800,000 and a million American 
citizens. There are other countries, very small countries, 
where we have a very good number in terms of the--there's a 
high percentage of people who register because the country----
    Mr. Miller. What countries would have the best percentage 
registered would you say?
    Mr. Betancourt. Well, to generalize, it would be a country, 
for example, that might be experiencing instability. We find 
that the highest registration levels occur in countries where 
there is some threat or need of evacuation or some civil 
unrest. Very often these are smaller countries. The other end 
of the spectrum are countries in Western Europe. I've mentioned 
Canada and Mexico, where we have a very small percentage of 
Americans who register. And then there are a great number of 
countries which are in between.
    Mr. Miller. You have to have U.S. citizenship to have a 
passport, can you generalize, how many people with U.S. 
passports have no intent of ever coming to the United States? I 
mean a U.S. passport is one of the most valuable commodities 
probably abroad.
    Mr. Betancourt. Yes.
    Mr. Miller. And maybe because that person was born in the 
United States, I mean how often does that happen and can you 
generalize at all about----
    Mr. Betancourt. It's very difficult to generalize. The 
passport is valid for 10 years. There is no law that requires 
that a person who is born a citizen ever return to this 
country. They can--a person can remain a citizen and be abroad 
indefinitely and at least for a generation or two. They could 
either have been born abroad as U.S. citizens and never return 
to this country. But it is very difficult. As I mentioned in 
the testimony, they are too mobile a population to estimate how 
many people who get U.S. passports have no intention of coming 
here. Generally, the reverse is true. Most people who obtain 
passports have fairly immediate travel plans. We know that in 
many instances people who apply for passports take only one 
trip in their life. They live in the United States. We issue 7 
million passports a year and that's the purpose of getting a 
passport. So there's not even a direct correlation between the 
number of passports and the number of citizens abroad because 
most people who have passports use them for travel.
    Mr. Miller. I remember being questioned in Central America 
about a child who was born in the United States and then the 
parents return to their own country. But that child is a U.S. 
citizen.
    Mr. Betancourt. Under the 14th amendment, yes.
    Mr. Miller. Right. But would parents normally get a 
passport for that child? Because that costs money.
    Mr. Betancourt. Well, it does and it is not a requirement 
that a person have a U.S. passport to travel in the Western 
hemisphere. It would be simply discretionary, although there 
are instances when our own government does not require the 
person to apply for a passport. But, for example, the country 
of destination in Central America may require the person enter 
on a U.S. passport. Such a child, though, would probably also 
be a citizen of, say, Costa Rica or Guatemala.
    Mr. Miller. Explain dual citizenship. How does that work?
    Mr. Betancourt. Well, dual citizenship occurs in precisely 
the circumstance that you just named. That is where the child 
acquires one citizenship, for example, through the parents and 
the other citizenship by virtue of the place of birth. Or the 
child has parents, one of whom is a U.S. citizen, the other of 
whom is a citizen of another country. Again, that is a fairly 
common, I have to say increasingly common, circumstance that we 
see. Now, the U.S. law does not operate to automatically strip 
that person of U.S. citizenship. The laws of the other country 
may or may not do so. But in many instances we are aware of, 
and again with the increasing number of marriages between 
people from different nations, there are increasing numbers of 
dual nationals and that's simply a fact of life that we live 
with.
    Mr. Miller. If someone is a dual citizen, for example say 
with Israel, do they pay taxes in both countries?
    Mr. Betancourt. The laws relating to taxation have to do 
with income and residency and factors which include, but go 
beyond, nationality. We have to occasionally acquaint ourselves 
with them. And I have found no simple formula which is 
applicable in terms of citizenship and many times there are 
filing requirements but there may not be taxes paid.
    Mr. Miller. You mentioned that the estimate in Mexico is 
800,000 to a million U.S. citizens. How do you come up with 
that estimate?
    Mr. Betancourt. Our Embassy in Mexico City, using both 
registration records, immigration records, information from a 
variety of sources, has come up with that estimate. It's--in 
fact, I checked on that number yesterday because I myself was a 
little bit skeptical about it, and because I was familiar with 
the number 800,000. I was told that the more recent estimate 
was that it was more likely closer to a million, but again that 
just shows you how wide ranging these numbers can be.
    Mr. Miller. Do you have any idea of the state of residence 
of, say, the people overseas?
    Mr. Betancourt. Among the information that is solicited in 
the registration process, usually is a U.S. home address, if in 
fact there is one.
    It is not a category that we routinely keep track of. We 
may look at the registration for the purpose of contacting 
somebody in terms of an emergency. But we don't, because there 
is no purpose served by our, for example, compiling states of 
residence. They are U.S. citizens overseas and our services are 
available to them without regard to their home State of 
residence.
    Mr. Miller. Thank you. Mrs. Maloney.
    Mrs. Maloney. I want to thank the gentleman for his 
service. And I agree with the chairman that your participation 
is one of the most important in our whole foreign affairs. I 
think that we really need to know what are we going to use this 
for.
    Now, if it were just to learn something, maybe there 
wouldn't be this great opposition to counting Americans abroad. 
But are we going to use it for apportionment, redistricting 
State and local boundaries? I guess that is not really a 
question to ask you, but I am just saying that sometimes people 
object to it because they don't know what the ramifications are 
going to mean in terms of reapportionment, which is highly 
political and highly powerful, and is really the root of 
government.
    So we really don't know what the purpose of it is or what 
we are going to use it for, and I think that question needs to 
be addressed, probably before we go forward or maybe we just 
define that we are not going to do anything with it, we are 
just going to learn and just try to get an understanding of 
what the ramifications are going to be.
    Second, my colleague, Mr. Clay, raised the point, who 
should the universe be? And I think that is a fair question to 
ask you as an American citizen, not in your own--you have a lot 
of great experience from this living abroad many years and the 
positions you have held.
    But should it be all citizens? Should it include foreign 
spouses, dependents of citizens? Should it include anyone who 
has ever lived in the United States? Do you have a sense of--
should it only be people who vote? Who do you think this 
universe should be?
    See, I think that there are those fundamental questions 
that people see and don't go forward because the fundamental 
questions haven't been answered.
    I wonder, who do you think the universe should be?
    Mr. Betancourt. Well, that is a little bit beyond the scope 
of my testimony. To the extent----
    Mrs. Maloney. I am asking you as an American citizen. 
Common sense, who do you think it should be?
    Mr. Betancourt. Well, that is difficult. I mean, I would--
it was my presumption really that we were talking about U.S. 
citizens. We know that for many purposes in terms of our 
dealing with people, we are dealing with situations in which 
the U.S. citizen is a member of a family. The other family 
members may or may not be U.S. citizens. You have a 
circumstance which might be fairly common where one of the 
spouses is a U.S. citizen, all of the children are U.S. 
citizens, but the other spouse is not a U.S. citizen. That is a 
family unit.
    But it really depends upon the purpose. Those questions 
come first. And I would think the purpose would define the 
universe.
    Mrs. Maloney. And in our census here, of course, here in 
the United States we count everybody, citizen and noncitizen. 
But, the importance of that is that we need to know 
demographically what is happening in our own country. Possibly 
in a foreign country we don't need such a universe of 
information. So maybe defining it more pointedly might help us 
get to the solution faster.
    Mr. Betancourt. And our estimates are just solely for the 
purpose of deciding how many people we need in a given country, 
because there is a correlation, although it is a rough 
correlation, between the number of citizens and the number of 
services that are going to be required.
    The other reason is for in the event of there being an 
extreme emergency, whether there may be a need to evacuate 
people. So our estimates are based solely on those very needs.
    Mrs. Maloney. Then there is another point that the chairman 
raised, and Mr. Clay also raised it, that in our Nation we call 
it the great civic ceremony. It is not voluntary, it is really 
required by law. There are very few responsibilities that are 
defined for the American citizen, and one that is clearly 
defined in the Constitution is that we must be counted every 10 
years, every American resident.
    That is not in the Constitution for people who decide to 
live abroad. It is a voluntary component. Anything that is 
voluntary may possibly skew the numbers, and that is another 
aspect that raises concerns that we have many questions about.
    In any event, I think that with the global economy, which 
is a reality, we are living and participating for the American 
economy in many cases in foreign countries, and I feel that has 
raised really the importance of counting Americans abroad even 
more.
    In any event, I thank you for your service and your 
testimony. And if you have any other ideas that could help us 
with these questions, get back to us, and thank you for being 
here.
    Mr. Betancourt. Thank you.
    Mr. Miller. Thank you, Mrs. Maloney. As we go through this 
process, I am sure that we will be relying on the State 
Department for input, as well as the Census Bureau.
    Have you all been meeting with the Census Bureau at all?
    Mr. Betancourt. Yes, we have. Earlier this summer we did 
have a visit from a number of Census Bureau personnel. They 
inquired about precisely the estimates that I referred to in my 
testimony, the estimates of Americans that are based upon 
considerations of workload and evacuation planning purposes.
    They asked how we developed those estimates, what the 
factors are that are used in compiling them. It is my 
understanding that they received country by country reports of 
our current estimates.
    So we have had several meetings with them at my office in 
the last 2, 3 months.
    Mr. Miller. Well, that is encouraging. Thank you very much. 
Thank you for being here today.
    We'll take a very brief break while the four members of the 
next panel would step forward, and we'll get the name tags 
changed. If you all remain standing.
    [Witnesses sworn.]
    Mr. Miller. Let the record show that, let's see, Mr. 
McClelland, Mr. Fina and Mr. Gribble said I do.
    Mr. Fina is the executive director for the Democrats 
Abroad. Mr. Gribble is representing Republicans Abroad. Mr. 
McClelland is testifying today on behalf of American Business 
Council of Gulf Countries, and Mr. Marans is here on behalf of 
American Citizens Abroad, the Association of American Residents 
Overseas and the Federation of American Women's Clubs Overseas.
    Let me thank you all for being here, and we'll have opening 
statements. We are going to try to stick with the 5-minute 
rule. There is a little timer here. We have your written 
statement. If you want to just not read it, that would be fine, 
however you all want to proceed.
    And so we'll begin with Mr. Fina.

   STATEMENTS OF THOMAS FINA, EXECUTIVE DIRECTOR, DEMOCRATS 
ABROAD; L. LEIGH GRIBBLE, MEMBER AT LARGE, EXECUTIVE COMMITTEE, 
REPUBLICANS ABROAD; T.B. ``MAC'' McCLELLAND, AMERICAN BUSINESS 
  COUNCIL OF THE GULF COUNTRIES; AND EUGENE MARANS, ATTORNEY, 
  REPRESENTING THE ASSOCIATION OF AMERICANS RESIDENT OVERSEAS 
   [AARO], AMERICAN CITIZENS ABROAD [ACA], AND FEDERATION OF 
            AMERICAN WOMEN'S CLUBS OVERSEAS [FAWCO]

    Mr. Fina. Mr. Chairman. First of all, let my say that I am 
disappointed to learn that you are planning to step down from 
this position. We have been looking forward to your continuing, 
because this is a long-range job and you know so much more 
about it than any of the rest of us, and we are counting upon 
you to see it through. So we hope that----
    Mr. Miller. We are going to get a lot done in the next year 
and a half. Thank you.
    Mr. Fina. Mr. Chairman, Mrs. Maloney, and members of the 
subcommittee. My name is Tom Fina, and I am the executive 
director of Democrats Abroad. I have been doing this now for 16 
years. Before that I was a Foreign Service officer. I was 
Consul General and I served as general manager of an American 
corporation in Italy.
    Democrats Abroad has about 30 chapters around the world. We 
have got about 10,000 adherents. We encourage Americans abroad 
to vote. We try to represent their interests here in the United 
States. We have been doing that now for about 40 years.
    We thank you for the opportunity to testify before your 
committee. Let me begin by thanking you, the subcommittee, for 
its very important support of the House decision on July 18th 
to allocate $2.5 million for planning to include overseas 
Americans in the census in 2010.
    This is a milestone in the long process of getting this 
count, and it is an objective that my colleagues here and the 
organizations which we represent have all been fighting for for 
many years.
    So we are grateful. We hope that you will now move to 
direct the Bureau of the Census to conduct a preliminary count 
in 2004, as provided in Congressman Maloney's bill H.R. 680. 
That would be a very important step.
    Ideally, we should like to see an enumeration of Americans 
abroad to be sufficiently accurate that it would rise to the 
level required for apportionment. We know that no one knows at 
this particular point how reliable the census data will be, and 
that is why we would like very much to see a preliminary count 
done in 2004 to smoke out both the possibilities and the 
limitations of a count in 2010.
    Only the professionals in the Bureau of the Census are in a 
position to imagine and to design a meaningful Census for 
Americans abroad that will be subjected to a minimum of 
litigation. They have the professional skills and the network 
of professional relations with foreign governments, statistical 
agencies to know how to approach this terra incognita.
    We know that the design of a meaningful census will take 
time, resources and testing. For our part, we are ready to work 
with the other overseas citizen organizations and the Bureau of 
the Census to help wherever we can.
    But it will only be after we have seen the results of the 
best efforts of the Bureau of Census that you and we will be 
able to judge the quality of the data gathered.
    Even if it is not up to the standards required for 
apportionment, there are other benefits in this exercise that 
completely justify the expansion of our statistical x ray of 
our whole citizen body.
    A census will respond to the patriotic desire of the 
American community around the world to be counted, to be 
measured, to be seen in its proper proportions as a dynamic 
part of our society. It will reveal the importance to our 
economy and to our society of our overseas citizens. And the 
conduct of the census will help to dispel the notion so 
prevalent among Americans abroad that our government doesn't 
care about their interests and values, their contribution to 
the well-being and the richness of our society.
    An enumeration will help the Congress, the executive branch 
and the public to measure the adequacy of the resources 
provided to the Department of State, to the Department of 
Commerce, and to other Federal agencies for the provision of 
services to Americans abroad.
    There has been a sharp decline in the post-war period in 
the number of consular posts abroad and therefore in the 
availability of government services to American citizens and to 
American business abroad.
    It is in the national interest that these services continue 
to be adequate.
    In the same way an accurate count showing geographical 
distribution and demographic composition will be of significant 
assistance to those Federal agencies responsible for planning 
emergency evacuations and assistance to American citizens in 
times of natural disaster and political turmoil. This is a 
major task and a service on which Americans count upon their 
government when things get tough.
    One of the sorest points, Mr. Chairman, for overseas 
American citizens is the denial to them of Medicare benefits 
while outside of the United States. Although they pay their 
Medicare premiums with their taxes, overseas Americans must 
return home to enjoy the benefits of coverage. The demand for 
an extension of Medicare to qualified citizens abroad is a 
political problem that will not go away until this need is met.
    We need to know the dimensions of the Medicare qualified 
universe abroad and an actual projection of its dimensions in 
the outyears.
    Mr. Miller. If you can try to bring it to a conclusion.
    Mr. Fina. I think there are other benefits. But let me say 
the things that we think should be included in the census. We 
should like to know of course the numbers. We would like to 
know the age of those who are counted, whether they have an 
additional nationality, the nationality of their spouse, the 
nationality of their children, their occupation and profession, 
their income, both foreign and domestic, their country of 
residence abroad, their voting residence in the United States, 
the date of their last vote in the United States, the nature of 
their medical insurance and their Social Security coverage.
    Mr. Chairman, that is a tall order, but we know that the 
Bureau of the Census is likely to be able to figure out a way 
to do it, and we believe that it is essential that be done.
    Thank you for the opportunity to speak.
    [The prepared statement of Mr. Fina follows:]

    [GRAPHIC] [TIFF OMITTED] T5727.028
    
    [GRAPHIC] [TIFF OMITTED] T5727.029
    
    [GRAPHIC] [TIFF OMITTED] T5727.030
    
    [GRAPHIC] [TIFF OMITTED] T5727.031
    
    [GRAPHIC] [TIFF OMITTED] T5727.032
    
    [GRAPHIC] [TIFF OMITTED] T5727.033
    
    [GRAPHIC] [TIFF OMITTED] T5727.034
    
    Mr. Miller. Thank you.
    Mr. Gribble.
    Mr. Gribble. Yes. Good afternoon, distinguished chairman 
and committee members. My name is Leigh Gribble. I am a retired 
naval officer and the owner of a consulting firm that is 
incorporated and registered in the State of Florida.
    My family and I have lived in Kuwait in connection with my 
military service and now my business for the past 9 years. 
However, we pay taxes and vote in Florida's Fourth 
Congressional District, which is where we hope to return to 
live full-time within the next few years.
    Among the various civic activities that I am involved with 
overseas and within the United States, I am honored to serve as 
vice chairman of the American Business Council of the Gulf 
Countries, and as a member of the Executive Committee of 
Republicans Abroad.
    Today I am testifying on behalf of Republicans Abroad, the 
international arm of the Republican Party, which has over 
13,000 members in approximately 60 countries.
    I am humbled today as I was on June 9, 1999, when I was 
privileged to appear before this august committee prior to the 
2000 census to give voice to the concern of thousands of my 
follow Republicans around the world.
    I am also saddened today that my appearance here is 
warranted by the fact that there is still an ongoing debate in 
Washington as to whether American citizens overseas should be 
treated on an equal basis with their fellow citizens resident 
in the United States with regard to being included in the 
decennial census.
    Rather than take up your valuable time reiterating the 
points that I made in my previous testimony, I would 
respectfully request, Mr. Chairman, that you accept my 
testimony from your June 9, 1999 hearing as attached to my 
written testimony today for inclusion in the record of this 
hearing.
    Mr. Miller. Without objection we'll include it.
    Mr. Gribble. Thank you. I would like to offer some 
additional thoughts on why it is imperative from the 
standpoints of accuracy and fairness to include overseas 
Americans in the census process.
    The mission of the Census Bureau is to accurately enumerate 
our growing population through the decennial census process. 
However, this mission has never been completely fulfilled due 
to the simple fact that private Americans living overseas are 
not included in the census.
    The population of Americans living and working abroad is 
estimated to be at least 6 million U.S. citizens, a population 
larger than that of 24 individual States in America. Imagine if 
1 of those 24 States was excluded from the census.
    The residents of that State would conclude that the 
government views them as invisible U.S. citizens. This is the 
status which American citizens in the private sector abroad 
currently find themselves in because they are not included in 
the census.
    Americans living abroad are vital to the competitiveness of 
the United States on the global economic stage. Overseas 
Americans directly represent U.S. business and trade interests, 
market our goods and services, and are truly Ambassadors of our 
culture and the American way of life.
    Indeed, they are anything but invisible, because they are 
actively promoting our Nation's beliefs, values and trade. 
Their pro bono work in promoting U.S. products and services is 
of critical importance to the U.S. Department of Commerce's 
efforts to enhance overseas trade, and yet Commerce's own 
Census Bureau does not consider it critical to enumerate them. 
Private Americans overseas certainly matter to the U.S. economy 
and they should matter to the Census Bureau, too.
    Over the past few years Republicans Abroad has conducted 
town hall style events in more than 47 nations. Many of these 
events included Members of Congress. During these forums, 
overseas Americans consistently expressed a strong desire to be 
counted in the decennial census.
    They do so for several reasons. First, they believe it is 
the duty of the Census Bureau to be as accurate as possible in 
detailing the current population of the United States. It is 
impossible for the Census Bureau to conduct a truly accurate 
census while knowingly excluding a large population of 
Americans simply because they are overseas. By not counting 
Americans abroad, the Census Bureau cannot credibly state that 
the census is accurate.
    Second, Americans overseas can and do vote. They must pay 
U.S. income taxes and they are inextricably linked to their 
home communities in America. By excluding them from the census 
the U.S. Government denies these American citizens equal 
protection under the law. They are not considered in 
apportionment for representation in Congress, nor in the 
allocation and distribution of Federal funds and benefits that 
are determined by population figures.
    The U.S. Government collects overseas Americans' tax 
dollars willingly enough, but they are not willing to count 
these overseas citizens and provide them with the same funding 
and benefits that they rovide to all other American citizens. 
This is just plain wrong, and certainly violates the 
Constitution's guarantee of equal protection for all Americans.
    Third, the Census Bureau enumerates Federal employees 
working abroad in the census, but they discriminate against 
private Americans, those who do not work for the government by 
not counting them. All overseas Americans deserve to be 
included in the census regardless of their employment status or 
who their employer is. Again, why should private American 
citizens overseas be denied equal protection?
    Fourth, the Census Bureau has routinely argued that 
counting overseas Americans would be too complex, too 
expensive, and nearly impossible to do. They claim that 
overseas Americans would be difficult to locate. However, when 
income taxes are due, the Internal Revenue Service seems to 
know the location of virtually every American abroad.
    How come the IRS can find overseas Americans but the Census 
Bureau says they cannot? Americans abroad can be found. Their 
are eager to participate in the decennial census and it is 
their right to be counted.
    Republicans Abroad hopes that in the interests of fairness 
and accuracy, our elected officials in Congress and the 
administration will on a bipartisan basis ensure that the 
Census Bureau enumerates our citizens overseas in the 2010 
census and in every decennial census to come.
    To that end we ask that you take whatever steps are 
necessary to accomplish this, including giving your full and 
careful consideration to supporting H. Res. 1745, the Full 
Equality for Americans Abroad Act, which has been offered by 
Representatives Ben Gilman and James Moran.
    Thank you for allowing me to testify today.
    [The prepared statement of Mr. Gribble follows:]

    [GRAPHIC] [TIFF OMITTED] T5727.035
    
    [GRAPHIC] [TIFF OMITTED] T5727.036
    
    [GRAPHIC] [TIFF OMITTED] T5727.037
    
    [GRAPHIC] [TIFF OMITTED] T5727.038
    
    [GRAPHIC] [TIFF OMITTED] T5727.039
    
    Mr. Miller. That was almost exactly 5 minutes. Thank you 
very much.
    Mr. McClelland.
    Mr. McClelland. Sir, I have come from Dubai. If I run over 
a little bit, please excuse me. Chairman Miller, Ranking Member 
Clay and members of the House Subcommittee on the Census, thank 
you for the opportunity to testify today.
    I know that I speak for all Americans abroad when I tell 
you how grateful we are to make our case this afternoon before 
this subcommittee. My name is Mac McClelland. I am here today 
on behalf of the American Business Council of the Gulf 
Countries, a nonpartisan nonprofit organization representing 
the nine American Chambers of Commerce, or AmChams in the Gulf.
    In addition to my ABCBG role, I am here today in three 
other capacities, as President of the American Business Council 
of Dubai and the Northern Emirates, as a retired Marine Corps 
officer and, most importantly to me, as a husband and a father 
of three American children, all of whom are residing with me in 
the United Arab Emirates.
    A decade ago as part of Desert Shield and Desert Storm, I 
participated in reconnaissance operations inside Kuwait before 
the air campaign started. I was able to evade the entire Iraqi 
military. However, I was not able to evade being counted in the 
decennial census. The Census Bureau found me along with more 
than 500,000 other American men and woman serving in the Gulf 
war.
    By the time census 2000 rolled around, I had become 
invisible in the eyes of the Census Bureau, which refused to 
include me in its enumeration simply because I had retired. I 
vote and pay taxes in the United States. Yet I was one of the 
estimated 3 to 10 million private Americans living overseas who 
are not counted in the decennial census, despite the Census 
Bureau's claim that everyone counts. And I have a larger one, 
Everyone Counts. I did get this neat pencil, but I didn't get 
the census form to go with it.
    So why are overseas Americans important to the United 
States and why do we deserve to be counted, Mrs. Maloney? 
Willard Workman, vice president at the U.S. Chamber of Commerce 
states that ``in this era of growing globalization Americans 
working overseas play an essential role in strengthening the 
U.S. economy, creating U.S.-based jobs, and serving as the 
world's most effective promoters of U.S. goods and services.''
    With your permission, Mr. Chairman, I would like to enter 
the complete text of this letter for inclusion in today's 
hearing.
    Mr. Miller. Without objection, we will include it in the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5727.040
    
    [GRAPHIC] [TIFF OMITTED] T5727.041
    
    Mr. McClelland. The AmChams represent much more than just 
business, however. We often serve as the backbone of the 
American communities worldwide. We build, invest in, and send 
our children to American schools abroad. We play a leading role 
in helping to get out the vote during national and State 
elections. We serve as a resource for families who have just 
moved overseas, kind of a ``welcome wagon.''
    We are deeply involved in security measures taken to 
protect Americans abroad, and more often than not we serve as a 
vital linchpin on a wide variety of issues between U.S. 
diplomatic missions and our overseas communities.
    My family's story as Americans abroad is not unusual. I 
retired honorably from the U.S. Marine Corp in 1996 and 
continued working and residing abroad. I am now a private 
consultant involved specifically in developing business for 
U.S. companies and promoting U.S. trade abroad.
    My wife, Rhonda, is a member of the American Women's 
Association, Dubai, a philanthropic organization of 600 
American women. Our children, Jonathan, Caroline and Emily 
either are or soon will be attending the American School of 
Dubai.
    American institutions and the American way of life remain 
very important to me and my family. The same can be said for 
every overseas American I know. In encouraging such 
institutions as Junior Achievement, Little League, Veterans of 
Foreign Wars, the Scouting Movement, and even the U.S. Chess 
Federation, we are building people-to-people relationships 
between the United States and friendly nations all over the 
world.
    Mr. Chairman, if I were the Census Bureau with a mandate 
from the U.S. Congress to count overseas Americans, I would 
concentrate my energies on reaching out through the U.S. 
Diplomatic Missions abroad, American Chambers of Commerce 
abroad, American citizens groups abroad, and they are all 
represented here, Republicans Abroad, Democrats Abroad, the 
American and International Schools, USO, the U.S. military 
installations abroad, global media in the English language, 
local overseas media in the English language, U.S.-based 
organizations with international affiliates, alumni 
associations at U.S. universities and colleges, major 
corporations that employ a large number of Americans overseas 
and U.S.-based food establishments in overseas markets like 
McDonald's and Burger King.
    The Census Bureau worked with more than 25,000 partners 
here in the United States to get the word out and make Census 
2000 a success. There is every reason to believe that if the 
Bureau forms partnerships with some of the groups that I have 
just mentioned the Census Bureau's same basic methodology will 
work for us Americans overseas.
    Mr. Chairman, we want to thank you for your leadership and 
for requiring the Census Bureau to prepare a report this year 
on what it will take to count Americans abroad.
    We would also like to thank Congresswoman Maloney and 
Congressman Cannon for their respective Census bills. However, 
the bill that goes to the heart of what our AmChams want is the 
Full Equality for Americans Abroad Act, H. Res. 1745, promoted 
on a bipartisan basis by Congressmen Gilman and Moran.
    The Gilman-Moran bill is the only legislation introduced to 
date that requires the Department of Commerce to accomplish two 
things; that is, to include all Americans abroad in the 
decennial census and to ensure that the data collected by the 
Census Bureau are used meaningfully, for apportionment and 
other purposes.
    Without these two elements, any overseas census count is 
hollow and meaningless, and quite frankly it would be a waste 
of my tax dollars. Over the years Americans abroad have had to 
earn the U.S. Government's recognition and respect one battle 
at a time. In each of our victories the U.S. Congress has 
played an instrumental role in helping overseas Americans to 
gain full equality with our fellow Americans living back home 
here in the United States.
    And as Democrats Abroad and others have argued, the Census 
Bureau counts aliens, convicted felons, persons committed to 
mental institutions who do not have the right to vote. 
Shouldn't the Bureau count the millions of Americans abroad who 
do have that right to vote? And I am not suggesting that there 
are some overseas who should not be in mental institutions.
    But these are just some of the examples of how Americans 
abroad overcame odds with the active support of Congress to do 
away with the wrong-headed policies that were long overdue for 
reform. With help from this subcommittee, we hope to chalk up 
another victory for common sense because Americans abroad count 
too.
    A year ago, Mr. Chairman, you and Mrs. Maloney directed the 
Census Bureau to figure out how to count overseas Americans. We 
will find out very soon how the Bureau intends to do that, on 
how they have spent the last year.
    We sincerely hope that they come up with more answers than 
they do questions. Last week on the House floor, Mrs. Maloney 
expressed concern that like Moses, we could be in the desert 
for 40 years if we do not receive a concrete plan from the 
Bureau.
    We couldn't agree more. And, Mr. Chairman, you hit the nail 
on the head when you said, it is not fair that Americans abroad 
are left out of the decennial census just because it is a 
difficult job to count them. As one overseas American put it, 
by excluding me from the decennial census my government is 
telling me that my vote counts and my taxes count, but that I 
as a U.S. citizen do not.
    There is broad bipartisan support for counting all 
Americans abroad. Let us work together in the weeks ahead to 
ensure that this count becomes one of the most important and 
most durable legacies of this subcommittee.
    Thank you again for the opportunity, and I will answer any 
questions that you have.
    [The prepared statement of Mr. McClelland follows:]

    [GRAPHIC] [TIFF OMITTED] T5727.042
    
    [GRAPHIC] [TIFF OMITTED] T5727.043
    
    [GRAPHIC] [TIFF OMITTED] T5727.044
    
    [GRAPHIC] [TIFF OMITTED] T5727.045
    
    [GRAPHIC] [TIFF OMITTED] T5727.046
    
    [GRAPHIC] [TIFF OMITTED] T5727.047
    
    [GRAPHIC] [TIFF OMITTED] T5727.048
    
    [GRAPHIC] [TIFF OMITTED] T5727.049
    
    [GRAPHIC] [TIFF OMITTED] T5727.050
    
    Mr. Miller. Thank you very much. We have a vote going on, 
and I think rather than rushing you, Mr. Marans, let's go ahead 
and take a recess and then come back. I did read all of your 
statements. I especially enjoyed yours, Mr. Marans, because you 
had some very concrete suggestions. I appreciate that. So I 
think it would be easier to take a recess right now. There may 
be two votes, so it may be 20 minutes. So we'll be in recess.
    [Recess.]
    Mr. Miller. The hearing will resume.
    Mr. Marans. I understand that you had requested the 
witnesses be sworn previously.
    Mr. Miller. If you would go ahead and stand and raise your 
right hands.
    [Witness sworn.]
    Mr. Miller. As I said before, I did read your statement. I 
appreciated it. I would like to ask you to proceed with your 
opening statement, observing the 5-minute rule. Then we'll have 
time to question.
    Mr. Marans. Mr. Chairman, Mr. Clay, my name is Eugene 
Marans. I am a lawyer with the international law firm of 
Cleary, Gottlieb, Steen & Hamilton. Our firm has for 40 years 
served as pro bono counsel to a number of organizations in the 
overseas citizen community. I was heavily involved as pro bono 
counsel in the bipartisan effort that led to the passage of the 
Overseas Citizens Voting Rights Act of 1975. So I have a strong 
vested interest in what comes after that in this hearing today.
    I am privileged to be able to appear today in support of 
the overseas private citizens census on behalf of three leading 
organizations of overseas American citizens, American Citizen 
Abroad [ACA], the Association of Americans Resident Overseas 
[AARO], and the Federation of American Women's Clubs Overseas 
[FAWCO].
    And I ask the chairman's permission also to submit the 
brief separate statements of those organizations into the 
record.
    Mr. Miller. Without objection.
    Mr. Marans. Also, I would like to take this occasion to 
acknowledge my indebtedness to David Hamod of Intercom, who has 
played a significant role in focusing this subcommittee's 
attention on the census and working closely with Mr. 
McClelland's organization, the American Business Council of the 
Gulf Countries. He has been a tremendous help in making sure 
that we focus on the realities of this important issue.
    ACA, AARO and FAWCO have asked me to stress three main 
points to you today. First, they want to be counted. And I 
won't have to go over all of the reasons why, because you have 
heard those from other people.
    Second, they want to help in the count, and they are 
willing to devote whatever resources are necessary to do that.
    Third, they applaud your efforts to start planning now.
    AARO, ACA, FAWCO and other leading organizations of 
overseas private Americans applaud the subcommittee's desire to 
start early to develop a plan with the Census Bureau to count 
overseas private Americans in the 2010 census, including for 
purposes of apportionment, and we urge the Congress to direct 
the Census Bureau to devise a preliminary plan by September 30, 
2002 for the inclusion of overseas private citizens in the 2010 
census and to appropriate sufficient funds for this purpose.
    We thank Congresswoman Maloney for her proposed 
appropriation of $2.5 million to start this process. It is a 
good step in the right direction.
    We also support the concept of an interim census to get 
ready for 2010. But I would say at the start that these 
organizations believe that the requirement in the Gilman-Moran 
bill that the 2010 census count overseas private American 
citizens is a good provision, because with that provision we 
believe the Congress will be able to encourage the Census 
Bureau to come up with a plan for an overseas census that will 
meet the standard necessary to count overseas citizens for 
purposes of apportionment. It if turns out that it is a 
complete failure after an interim census, Congress can always 
back down.
    But if we don't start now, we are concerned that just as 
you said, Mr. Chairman, we'll end up back here in about 2008, 
and it will be too late then to develop a plan that will really 
work for purposes of apportionment.
    Now, the overseas organizations believe this comes down to 
really two issues for purposes of need. One is just a plain 
matter of civics. Twenty-five years ago the Congress assured 
overseas citizens the right to register and vote absentee in 
Federal elections in their State of last residence in the 
United States, even though that State may not be their current 
State for purposes other than voting in Federal elections.
    Second, it is a matter of economics, as the other witnesses 
have indicated.
    Now, how can the overseas organizations help? We know the 
Congress must rely on the Census Bureau to design the 
appropriate mechanism, but we also know how important it is for 
the Census Bureau to be able to have the support of Congress in 
this effort.
    Indeed, the U.S. Supreme Court emphasized the importance of 
congressional support and direction in turning away a challenge 
to the 1990 census.
    Now, we recognize that it is vital that any kind of 
overseas private Americans census achieve a high level of 
distributive accuracy. That is what the courts have said it has 
to have, a high level of distributive accuracy. We understand 
that technologies for counting overseas private Americans must 
be designed to avoid, to the extent reasonably possible, 
favoring overseas citizens from one country over another or 
from one State over another or one line of employment over 
another.
    Now, what are some of our ideas? I will be very brief, 
because I see the red light is already on.
    First, we think that the Census Bureau could consider 
designing a census reply form along the lines of our Uniform 
Draft Overseas Citizen Census Card that we provided to the 
staff and the subcommittee.
    Second, we think that the Census Bureau could consider 
developing an integrated master control list of private 
American citizens believed to be living abroad.
    Third, the Census Bureau could consider what should be the 
most appropriate techniques to get an OCCC to overseas private 
Americans. For example, would it be appropriate to send the 
OCCC by foreign equivalent of certified mail to specific 
individuals whose names and addresses are shown on a reasonably 
correct master list of private American citizens believed to be 
living abroad? This might help also in following up with 
nonrespondents and help assess uncounted ones.
    Now, we talk about this being a voluntary census overseas. 
It does not have to be considered completely voluntary. If 
overseas citizens are properly identified and they get a form 
that says, this is a form that you need to fill out, I think 
there is a question, even under the present statute, whether 
they could be completely exempt from filling in that form and 
sending it in.
    Now, that is just a quick take. I'll look at a couple of 
other issues. We have already heard from the State Department 
about some of the resources they could offer in this effort and 
their offer should be given further consideration.
    But they had a good idea which was, in effect, to have the 
Census Bureau consider making a kind of preliminary profile 
through its own personnel of the composition of the private 
American community in each foreign country using the resources 
of the consular services to the extent useful, but, also taking 
into account the knowledge and experience of the local 
businesses and other private organizations.
    Now, we recognize that there is a question of potential 
fraud. We have heard reference to that issue, and, as I 
mentioned, I was heavily involved in overseas voting rights for 
nearly a quarter of a century. Overseas American citizens have 
used the FPCA, the Federal Post Card Application form, to vote 
by absentee ballot. According to the U.S. Department of 
Defense, which administers the Federal voting program, there 
has never been a pattern of abuse or fraud by Americans living 
abroad during this period. Any allegation of fraud concerning 
overseas absentee ballots in the last Presidential election 
concerned the counting side, not the voting side.
    Moreover, information submitted on an overseas citizens 
census card like that submitted on the FPCA would be subject to 
Federal false statement criminal penalties, which are contained 
already in the census legislation itself. It would not be such 
an easy thing for an overseas citizen to consider intentionally 
filling out a false card.
    Now, another issue that comes up besides the question of 
fraud--is whether the inclusion of overseas private citizens 
would be inconsistent with the prevailing concept of usual 
residence for overseas Americans. The answer is no.
    We have already crossed that bridge. The Census Bureau has 
already departed from the so-called traditional usual domestic 
residence standard in counting federally affiliated Americans 
abroad for purposes of apportionment. And indeed the U.S. 
Supreme Court in 1992 expressly validated inclusion of 
federally affiliated overseas Americans for purposes of 
apportionment in the 1990 census, noting that the term ``usual 
residence'' can mean more than physical presence for overseas 
private Americans. We believe that the congressionally mandated 
right to register and vote absentee in Federal elections is a 
significant part of that.
    In closing, Mr. Chairman, Mr. Clay, we recognize that 
counting private Americans overseas will be a major challenge, 
but we also know that the U.S. Census Bureau is the preeminent 
population data collection agency in the world, and we have 
full confidence that the Census Bureau, with appropriate 
congressional direction, guidance and funding, can design and 
meet a reasonable standard for counting the citizens abroad and 
that standard and the results of that count will meet the 
standards of Congress and the Federal courts.
    Thank you, Mr. Chairman, Mr. Clay, for the opportunity to 
appear before you today.
    [The prepared statement of Mr. Marans follows:]

    [GRAPHIC] [TIFF OMITTED] T5727.051
    
    [GRAPHIC] [TIFF OMITTED] T5727.052
    
    [GRAPHIC] [TIFF OMITTED] T5727.053
    
    [GRAPHIC] [TIFF OMITTED] T5727.054
    
    [GRAPHIC] [TIFF OMITTED] T5727.055
    
    [GRAPHIC] [TIFF OMITTED] T5727.056
    
    [GRAPHIC] [TIFF OMITTED] T5727.057
    
    [GRAPHIC] [TIFF OMITTED] T5727.058
    
    [GRAPHIC] [TIFF OMITTED] T5727.059
    
    [GRAPHIC] [TIFF OMITTED] T5727.060
    
    [GRAPHIC] [TIFF OMITTED] T5727.061
    
    [GRAPHIC] [TIFF OMITTED] T5727.062
    
    [GRAPHIC] [TIFF OMITTED] T5727.063
    
    Mr. Miller. Thank you. Thank you for continuing to be an 
advocate for this purpose.
    Let me start off with a couple of questions. As we were 
talking with the gentleman from the State Department, we 
discussed whether we count all U.S. citizens, what about a non-
U.S. citizen, a spouse of a U.S. citizen living overseas? It 
gets down to this defining the universe. This is going to be 
the problem. Do we only count them if they plan to move back to 
the United States? What about the child that just happens to be 
born in the United States and moves back to their native 
country and hasn't been back to the United States for 30 years?
    How do you define the universe, Mr. Gribble, first of all 
on the child that is born in America and, you know, to foreign 
parents, and it goes back to their home country with maybe no 
expectation of ever coming back to United States?
    Mr. Gribble. Mr. Betancourt failed to point out that 
children's passports have to be renewed every 5, not every 10 
years. So at least every 5 years that foreign resident child 
with an American passport is going to have to go down to the 
U.S. Embassy and declare their citizenship again.
    Mr. Miller. With a passport. What if they have a birth 
certificate, if they are in----
    Mr. Gribble. If they would have--I guess the concept as far 
as an American passport being there, and they obviously have 
some intention of maintaining their affiliation with America, 
they are going to have to renew that affiliation on a 5-year 
basis while they are minor children.
    As far as the foreign spouse goes, I am not totally 
conversant with what the census forms here in the United States 
require as far as how various members of the household are 
counted.
    Mr. Miller. See, we count illegals, but we don't count you.
    Mr. Gribble. Not only illegals in the United States, but 
you counted 450-some thousand in American Samoa and 108,000 in 
the U.S. Virgin Islands.
    Mr. Miller. They are U.S. citizens.
    Mr. Gribble. Well, but they don't pay Federal income tax, 
and I do.
    Mr. Miller. Right. Good point.
    Mr. Gribble. I guess we keep running on there, I know--how 
do the folks on this side of the panel fix these problems? What 
procedures do we come up to give the Census Bureau to make this 
all right and make sure it is 100 percent fair for everybody. 
It certainly is unfair that we are not counted now. But I don't 
want things to be fair for me and unfair for everybody else.
    But my good friend Congresswoman Maloney has offered up 
some things that we have already brought before the committee 
in 1999. But I don't think the onus should be on us any more 
than the Department of Defense puts the onus on the standard 
American citizen to come up with a strategic integrated 
operating plan or national defense policy.
    Mr. Miller. Right.
    Mr. Gribble. Nobody calls Mr. Gribble from the DOD and 
says, how do you think we ought to do that? That is what we are 
going to the Census Bureau for.
    Mr. Miller. Does anyone else want to comment?
    Mr. Fina. Mr. Chairman, it seems to me that a reasonable 
way of approaching the question of the universe is to say that 
it is anyone who is an American citizen.
    We can't determine, and most citizens don't know, what 
their intentions are, whether they are going to return or not 
going to return, when they are going to return. But there is a 
body of legal opinion that will enable us to determine who is 
and who is not a citizen. And all of our discussions thus far 
in our advocacy of inclusion of Americans abroad has been based 
upon a request that we should count American citizens, whether 
big citizens, little citizens, old, young citizens, whether 
they have been there for a while or not for a while. We would 
think that would be the appropriate criterion.
    Mr. Miller. You brought up the legal issue. There are going 
to be some legal questions about apportionment purposes. Is it 
for apportionment purposes? I can see this in courts. You 
brought up the issue of distributive accuracy, and I can see 
where--in fact, Mr. Clay and I were just chatting on the way 
over to vote.
    Florida, for example, has no State income tax, and a lot of 
people like to claim Florida as their State of residence for 
that purpose. Well, Florida may be a winner in this.
    Texas shares a big border with Mexico, and the State 
Department thinks there are 800,000 to a million U.S. citizens 
in Mexico. Well, that would be a benefit to Texas.
    In the same way you could say New York would have benefited 
because it is in close proximity to Canada. Then a State like 
Missouri may not have as much benefit. So one of the things you 
could find out is it is going to be not a partisan issue, but 
geographically, because you are going to have a winner and 
loser.
    So there are potential legal problems, to make sure it is 
accurate and all countries are counted fairly and this and 
that. And being a lawyer--and that is another question. There 
are some of them that are easy to count, U.S. people that pay 
taxes, you know, registered voters, people that receive Federal 
payments, Social Security checks. Those are easy.
    But then once you get beyond that, where do you go? You 
have 800,000 or a million in Mexico. How do you find them? If 
we are talking about over in the Gulf States, is it fairly well 
defined who is in the Gulf States, as far as, you know, in the 
American Emirates?
    Mr. Gribble. I would say that probably the American 
community in Kuwait, because we do live under threat conditions 
on a predominant basis, probably 95 percent of the American 
citizens over there are registered. It is a small enough 
community, 6,500 folks. If you wandered through the American 
food court that Mac talked about, you know who your friends and 
neighbors are. We certainly are recognized within the Gulf. 
Using State Department registration records would probably get 
about 90 percent accuracy.
    Mr. Miller. What do you do when you go to Mexico and you've 
got a million to count, or El Salvador where there's a very 
large number? To be fair about this, maybe we can get 99 
percent count in Kuwait and that's great, but you only get 50 
percent count in Mexico. That's where the potential legal 
challenge could come.
    Mr. Fina. Mr. Chairman, one reason that I mentioned the 
importance of the relationship which the Bureau of the Census 
has with foreign statistical agencies is that some governments 
do conduct, do include the question of foreign citizenship in 
their census. Canada, for example, does have some sort of a 
count of people who claim to be or whom they have identified in 
some way as being American citizens. That is also the case, I 
gather, in the case of Ireland. I don't know how many other 
countries do the same.
    I do know from my own experience, when I was trying to 
count American citizens in Italy for the purposes of the 
Department of State's data base, that it was largely a matter 
of looking out of the window and saying to a colleague: ``You 
know, looks like there are a few more people here this year 
than last year. Don't you think so? Yeah. Well, maybe we'd 
better increase it by 5 percent.'' I would think most of the 
large industrial countries in Western Europe probably don't 
have a very good count. But there may be some that do and 
that's a place where the Bureau of the Census can at least go 
to make some judgment about who's there and how to verify their 
qualification for being counted.
    Mr. Gribble. A lot of those other countries do have 
restrictive immigration as to who they're allowing into their 
country and they keep very, very accurate tabs on who's there 
and where they live. And again, you know, if our Census Bureau 
and the State Department started talking to the immigration 
departments in some of these other countries, they might be 
able to glean that data from their records.
    Mr. Miller. I think that, you come from the easier 
countries to count. The countries in the Western hemisphere 
where you don't even need a passport to go are going to be the 
greatest challenge to count and probably where the greatest 
numbers are going to be. I remember, the Census Bureau has an 
international division that does consulting. One time I was in 
Ankara, Turkey and was meeting with them. And of course in 
Turkey they have a mandated census day and everyone is required 
to stay inside for the day. That would not work certainly in 
this country, let alone trying to say we are going to make them 
do it and count U.S. citizens over there. But there are some 
legal challenges. But it may be worth doing even if it doesn't 
meet the legal standard of apportionment.
    Now, you know, we can try to shoot for that as a goal. But 
the question is, if you can only count 30 percent of the U.S. 
citizens in Mexico but you can get 100 percent in Kuwait and 
then I can see the political fighting, that Mr. Clay would say 
Missouri's hurt, Florida's helped, that's not fair. I mean it's 
not a race or anything else. It's just a geography thing that 
would be in there.
    So, you know, I'm looking forward to hearing, seeing the 
Census Bureau's proposal come September, and I look forward to 
hearing it in October.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. The first question for 
Mr. Gribble, one of the main arguments you make is that persons 
who vote and pay taxes in the United States should be counted 
in the census. Would it be acceptable to count only those 
persons and their dependents in the census?
    Mr. Gribble. No, No. I just use that as an example of why 
should I pay taxes and vote in this country if the country 
doesn't count me? My Federal taxes come up here, my Federal 
income taxes that I pay come up here and never go back to the 
Fourth District because I don't count there. You know, I don't 
have to pay income tax in the State of Florida, but I pay 
corporate tax in the State of Florida.
    Mr. Clay. OK. Let's take that----
    Mr. Gribble. So I use that as a jumping off point.
    Mr. Clay. Sure. But let's take it a step further. If the 
enumeration is completely voluntary and if there's no 
documentation needed to prove State ties, could imaginary 
people be created?
    Mr. Gribble. To what reason? To what purpose?
    Mr. Clay. Well, we hear a lot about concerns about the 
manipulation of data, maybe to create more people to vote. You 
know.
    Mr. Gribble. I certainly understand that can be a concern. 
But again, you started your question off with saying if it's 
voluntary. Why would we want to make it voluntary? It's 
mandatory for everybody in the States. It's mandatory for 
overseas citizens to file U.S. income tax returns. Why would we 
make it voluntary for them to participate in the census?
    Mr. Clay. Let me ask you, obviously, you represent a group 
of individuals that are very interested in being counted. Do 
you think that you are a representative of the entire Americans 
overseas population? The Bureau has indicated that. Private 
citizens abroad are not willing to be enumerated. Is this true?
    Mr. Miller. It's time to let someone else share.
    Mr. McClelland. I'll speak to that if I may.
    Mr. Clay. OK.
    Mr. McClelland. If you don't mind. What do they base that 
on? Have they gone overseas? Have they talked to people? Have 
they done some type of poll?
    Mr. Clay. This is what the Bureau tells us. I mean, I'm 
going off of what they tell me.
    Mr. McClelland. Sir, Mrs. Maloney called it Census's 
bellyaching. Census's bellyaching, sir, will stop if you enact 
legislation requiring them to count Americans abroad and give 
them the money to do so in a census that will provide 
appropriate and unbiased data for apportionment and other 
purposes. All the bellyaching will stop. And I can tell you 
that American citizens groups abroad, those represented at this 
table and others who aren't here, are better organized and have 
better communications tools today than they ever have in order 
to put the word out to collect Americans, if it's collect them 
at a central location, the American school, consulate or 
wherever, and to help in that effort.
    We're here to help. We're not fighting this. We're fighting 
for it to help every State.
    Mr. Clay. Let me hear your opinion about who should be 
counted.
    Mr. McClelland. American citizens.
    Mr. Clay. People having United States and second nation 
citizenship? Should they be included?
    Mr. McClelland. If they are an American citizen, regardless 
of whether they have a second, third or fifth passport. If 
they're an American citizen they should be counted. They would 
be here in the States.
    Mr. Clay. OK. All persons born in the United States? Even 
though some of these persons may have become citizens of the 
country in which they currently reside?
    Mr. McClelland. That's a personal opinion that I would have 
to express and not that of the American Business Council of the 
Gulf Countries. In talking about American citizens abroad, 
every American abroad should be counted.
    Mr. Clay. OK.
    Mr. Gribble. If they give up their citizenship, if they're 
not holding a dual citizenship but they give up their U.S. 
citizenship to take that of another country, they're no longer 
American citizens and they should not be counted.
    Mr. Clay. Let me ask Mr. Marans. Should the Americans 
overseas have to have documentation to prove ties to a certain 
address or State?
    Mr. Marans. Well, that's a good question, Mr. Clay. The 
OCCC we have here would require the overseas citizen to list a 
State, and the OCCC also says that refusal to answer questions 
on the form to the best of your knowledge or providing 
willfully false statements may subject you to criminal 
penalties. So the overseas citizen would have to know that if 
he or she puts a particular State on this form, that person has 
to be able to validate that residence.
    Now, the question is, should the form contain something 
more? Should it, for example, contain an address, the so-called 
last residence address in the State immediately prior to 
departure of this citizen from the United States? That's a 
possibility. That's something that the Census Bureau could 
investigate, and then the question would be whether the Census 
Bureau should seek to validate that address through some other 
records for all of the replies, for some of the replies; how 
are they going to determine whether these replies are false or 
not? But the Census Bureau has that problem already today in 
trying to consider whether information that's provided on 
census forms is valid. It is a validation issue, just as 
overseas citizen listing of U.S. citizenship on their form is a 
validation question.
    Mr. Clay. Should the form also include what city and 
country overseas these people are living in?
    Mr. Marans. The present form would.
    Mr. Clay. It would? OK.
    Mr. Marans. It also has optional entries for e-mail 
address, telephone, fax. That's already in this form. But this, 
I should emphasize, is just a draft form. The idea is to stoke 
discussion in a constructive fashion between the Census Bureau 
and the stakeholder constituencies and this committee to move 
the process forward.
    Mr. Clay. Thank you.
    Mr. Fina, should they have a last domicile in the United 
States? Should they have an address in the United States?
    Mr. Fina. I would think it would be reasonable to ask 
people to provide a last domicile in the United States, even if 
they no longer live there, because in our present system of 
overseas voting we do require that people show where they last 
lived and presumably those addresses are verified by local 
election officials. So I don't think it's unreasonable to ask 
that there be a previous domicile.
    Now, what you do with the people who are born in the United 
States and were promptly taken back to a foreign country before 
they had a domicile here I think is a question you have to 
solve by some sort of an administrative regulation. Maybe you 
would say the last domicile of baby Smith was Presbyterian 
hospital or something like that.
    Mr. Clay. In your opinion, do most Americans overseas want 
to be enumerated?
    Mr. Fina. I think there is very widespread support for the 
idea. I don't think that all Americans overseas want to be 
enumerated any more than I think that all Americans in the 
United States want to be enumerated. There are a certain number 
of people who absolutely oppose the idea for all sorts of good 
and bad reasons.
    Mr. Clay. Thank you. And thank you, Mr. Chairman.
    Mr. Miller. Let me follow this. Again, I've gone to some 
countries, and you run into people--I remember being in a 
country in South America actually earlier this year and a lady 
that was a translator was born in the United States--no, had 
come to the United States in the early 1970's and married a 
U.S. citizen. She became a U.S. citizen and she moved back to 
this country in the 1970's and it just came out that she has a 
U.S. passport. Now she has never been back to the United States 
and she has no intent of coming back to the United States. 
She's a citizen of that country as far as she's concerned, but 
she's got a U.S. passport. So I guess what you're saying is she 
should be counted.
    Mr. Gribble. Absolutely.
    Mr. McClelland. She's still a U.S. citizen.
    Mr. Miller. Then she gets counted twice. She gets counted 
in that country.
    Mr. McClelland. They don't do apportionment for the U.S. 
Congress in that country though, Congressman. She's an American 
citizen. She should be counted.
    Mr. Miller. But she has no intent to ever come back here.
    Mr. Gribble. We don't have classes of citizenship in this 
country. If you have a U.S. passport, you're an American 
citizen.
    Mr. Miller. What happens if you have a birth certificate 
from the United States. You don't get a passport and so you're 
a U.S. citizen just because you have a birth certificate.
    Mr. Gribble. If you have a U.S. birth certificate you're a 
U.S. citizen.
    Mr. Miller. And you haven't been in the United States for 
40 years.
    Mr. McClelland. Those are the immigration laws in the 
United States, Congressman.
    Mr. Miller. I'm just asking the questions how you feel.
    Mr. McClelland. Yes, sir. We have cases just like that in 
Dubai, where, for instance, a Jamaican man is married to a Sri 
Lankan woman and they intentionally traveled to the United 
States for both of their children to be born here and then went 
back overseas. Now the children carry American passports. They 
have no clue what the United States is about, yet they're 
American citizens.
    Mr. Miller. All right. Using that as an illustration for 
apportionment purposes, which is the only thing that the 
Constitution requires in the first article that we address the 
Census for apportionment purposes. Why should those two 
children be assigned to whatever State the hospital was in 
where those children were born to affect apportionment which 
is, you know, distributing the representation? I mean I can see 
counting them and getting that information. I'm not opposed to 
collecting information, but getting an apportionment. I mean 
why should they affect how our States get apportioned? Was the 
hospital in St. Louis versus the hospital in Florida?
    Mr. McClelland. OK. Let's bring it closer to my home. My 
mother's father, a German citizen, traveled through the United 
States, came through Ellis Island, gained his citizenship, went 
on to China; this was at the turn of the century. My mother was 
born in China to a naturalized American father, raised in 
China. Her mother was Japanese. OK? Now----
    Mr. Miller. I need a flow chart here.
    Mr. McClelland. Do you want me to draw a diagram? She was 
born an American citizen because her father had an American 
passport. The Japanese went into China, destroyed the consulate 
and all the records. The only thing that she had that proved 
that she was an American citizen was a passport. She has no 
birth certificate, no record of anything other than an American 
passport, OK? So should she not have been counted? You know, 
were this the question in 1929, when my mother was born, of 
course she should have been counted. She's an American citizen. 
She ultimately came to the States. But I'm sure at 16 years old 
she wasn't thinking I'm going to the States next year so I can 
be included in the census.
    So, yes, the answer to the question is if they're American 
citizens they should be counted.
    Mr. Miller. The question is--maybe not in this case, but 
say they're living in Ecuador and the children are born there 
and the mother has returned, and they don't have a passport. 
How do we find them to count them? I mean, you know, they may 
not even speak English. Which is, you can still get the form 
but we have no record of it, besides they have a birth 
certificate and we have no idea where they are. How do we 
locate them or how do we locate this lady translator? I'm 
saying she doesn't want to be counted, so we don't have any 
record. Well, she does have a passport.
    Mr. McClelland. We won't get everybody obviously. But I 
think the statistics are correct when we hit 66 percent in the 
national census, the domestic census, the Census Bureau had a 
party celebrating the fact that they'd hit 66 percent. You 
know, when do you say it's a success and when do you say it's a 
failure? I think if we make an honest effort to count all 
Americans abroad by giving the Census Bureau the power and the 
money to do it and mandating that they count Americans abroad, 
with the definitions that we have, that an American citizen in 
the different, the passport and the birth certificate, the 
birth right, and I think that's what it comes down to is a 
birth right, then count them.
    Mr. Marans. Two quick points. One, I think we do have to 
keep in mind that we do have a difference between just counting 
overseas citizens and counting them for purposes of 
apportionment. And the form that we gave out, the draft form, 
makes clear that persons may be listed without a State or other 
U.S. jurisdiction of last residence in the United States and 
may still be counted in the census. But they would not be 
allocated to a particular State for apportionment purposes.
    So that's a foundation for one principle of how to deal 
with it. How you deal with the baby who was resident in Sibley 
Hospital for 3 days, it's a different question. That would have 
to be worked out in detail by the Census Bureau in consultation 
with the various stakeholders.
    And that reminds me of one other thing. We know the Census 
Bureau is going to have a report coming up soon. In past years 
we've had some opportunity to meet with the Census Bureau. We 
think it could be very helpful maybe if this subcommittee or 
its staff could help facilitate some further meetings with some 
of the stakeholders.
    Mr. Miller. Well, have your organizations, or are you aware 
of, been asked to meet with the Bureau? I mean, I think they 
were trying to meet with the outside groups. You have been 
asked?
    Mr. Fina. I haven't been asked, but I did speak with them 
prior to your hearing because I wanted to get a----
    Mr. Miller. My understanding is they're going to try to 
reach out to the groups, you know, before they come up with 
their report to get the input.
    Mr. Marans. We'll look forward to that.
    Mr. Hamod. We initiated a meeting that came on the heels of 
a congressional meeting.
    Mr. Miller. Just a second. I'm sorry. You need to identify 
yourself and be sworn in.
    Mr. Hamod. David Hamod on behalf of the American Business 
Council of the Gulf Countries. We did, at the urging of the 
subcommittee, initiate a meeting with the Census Bureau. It 
lasted for about a half an hour. It was not very substantive.
    Mr. Miller. How long ago was this?
    Mr. Hamod. That was about 2 weeks ago. The Census Bureau 
said they do not intend to consult with stakeholders before the 
issuance of the report; rather they plan to consult with the 
stakeholders next year.
    Mr. Marans. So maybe the point I should make is some of us 
stakeholders think maybe it's useful to be consulted as part of 
the preparation of this report.
    Mr. Miller. I was glad to hear that they have been meeting 
with the State Department anyway. But I thought my impressions 
were really mistaken. Mr. Clay, do you have any more questions?
    Mr. Clay. I'm fine.
    Mr. Miller. Do any of you all want a concluding comment 
before we adjourn?
    Mr. Gribble. Yes. I just repeat our position, sir, and that 
is that we hope that whatever enumeration is done by the Bureau 
of the Census and we hope that they will work on something by 
2004. We would like it to meet the requirements, the 
constitutional requirements for apportionment. But that is not 
an essential qualification. What we want is a count of the best 
information that we can acquire, doing their very best, and we 
hope that it will be good enough for apportionment. But if it 
can't reach that level, we still think it would be enormously 
valuable to us to have the data.
    Mr. Miller. One comment, Mr. Fina, you made. There's a lot 
of things you'd like to find out on a form, and there's a lot 
of privacy concerns in the census, and so it gets down to the 
question, and you raised the issue of what are we trying to 
accomplish. And when you start getting into income questions 
and all that, you're starting to get invasion of privacy and it 
affects response rates. But that's something we can proceed on. 
And I'm hoping we can do one, say, 2004 to see what--you know, 
we don't know what we have until we try it and we want to be 
prepared for 2010.
    So let me thank you again for coming today, moving the 
process along, and looking forward to another hearing with the 
Bureau, and then we'll, you know, get further input and 
hopefully we'll be ready in a few years to do the test and then 
be prepared for 2010.
    I ask unanimous consent all members and witnesses who have 
opening statements to be included in the record, and without 
objections, so ordered. Mr. Marans has asked to have a 
statement also. In case there are additional questions that 
Members may have for witnesses, I ask unanimous consent for the 
record to remain open for 2 weeks for Members to submit 
questions for the record and let witnesses submit written 
answers as soon as practicable. Without objection, so ordered.
    The meeting is adjourned. Thank you.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5727.064

[GRAPHIC] [TIFF OMITTED] T5727.065

[GRAPHIC] [TIFF OMITTED] T5727.066

[GRAPHIC] [TIFF OMITTED] T5727.067

[GRAPHIC] [TIFF OMITTED] T5727.068


</pre></body></html>
